                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: 111100042                                                                    Page 1 of 1



         We assessed an allegation that an NSF employee 1 improperly forwarded interview questions and
         answers to a potential hire2 and authorized procurement card purchases for equipment that was
         not properly documented. 3 We found that the initial allegation was not substantiated; however,
         after reviewing procurement card purchases and the property tracking system report for the
         division, 4 we found that several items purchased and were not registered with NSF. 5

         We met with the NSF employee 6 responsible for purchasing the questionable items. This
         employee successfully identified and provided documentation for the items in question.

         An additional allegation from the above stated NSF division claimed an NSF employee 7 had not
         properly returned division equipment upon reassignment to a new NSF division. Following
         contact with the NSF employee, 9 the equipment was promptly returned. 10

         No further investigation is necessary.

         Accordingly, this case is closed.




                                         Investigator                                  Date




                                                                                   -
Affix your signature;
Print your name; insert
date MOI completed.

NSF OIG Form 4 (11102)
